Department of Homeland Security
   Ofﬁce of Inspector General

             Evaluation of DHS' Security 

            Program and Practices For Its 

     Intelligence Systems For Fiscal Year 2009 


             (Unclassified Summary) 





OIG-09-92                                   July 2009
                                                                          U.S. Department of
                                                                          Homeland Security
                                                                          Washington, DC 20528




                                Office of Inspector General
                Evaluation of DHS’ Security Program and Practices For Its
                      Intelligence Systems For Fiscal Year 2009
                                       OIG-09-92


We reviewed the Department of Homeland Security’s enterprise-wide security program
and practices for its Top Secret/Sensitive Compartmented Information intelligence
systems. Pursuant to Federal Information Security Management Act of 2002, we
reviewed the department’s security management, implementation, and evaluation of its
intelligence activities, including its policies, procedures, and system security controls for
enterprise-wide intelligence systems. In doing so, we assessed the department’s Plan of
Action and Milestones, certification and accreditation, privacy, and incident reporting
processes, as well as its security training and awareness program.

The department continues to maintain an effective enterprise-wide information security
management program for its intelligence systems. Overall, information security
procedures have been documented and adequate security controls have been
implemented. Nonetheless, management oversight and operational issues remain
regarding the effectiveness of the program. Concerns with the Plan of Action and
Milestones process and the implementation of a formal information system security
training and awareness program for intelligence personnel still exist. Further, the
Intelligence and Analysis office, having become responsible for the U.S. Coast Guard
intelligence systems reporting, has not provided a current authority to operate to the U.S.
Coast Guard for its Coast Guard Intelligence Support System. Additionally, the
Intelligence and Analysis office should continue to provide management oversight to
ensure that the U.S. Coast Guard maintains an effective information technology security
program and complies with the Federal Information Security Management Act and
Department of Homeland Security requirements. Fieldwork was conducted from May
through July 2009. (OIG-09-92, July 2009, IT)
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
